April 30, 2021
Via electronic filing
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Dart v. Mays, et al., No. 20-990

Dear Mr. Harris:
I represent the respondents with respect to the above-referenced petition for
certiorari. Respondents’ brief in opposition to the petition, after one extension, is currently
due on May 14, 2021. Respondents respectfully request, under Rule 15.3 and 30.4, for a
further extension of 28 days, up to and including June 11, 2021, to file their brief in
opposition. Petitioner consents to the requested extension.
The extension is warranted because counsel for the respondents have been occupied
with time-sensitive briefing in other matters, including responding to four separate
summary judgment motions in Farris v. Kohlrus, No. 17 C 3279 (C.D. Ill.), which was due
on April 26, and a response to another summary judgment motion in Dwyer v. Neal, No. 18
C 0995 (N.D. Ind.), which is due on May 7 after requests for extensions by both sides. In
addition, the ongoing Covid-19 pandemic and related closures have caused additional
burdens on counsels’ time unrelated to their legal practice. An extension of 28 days will
allow counsel for respondents to prepare a comprehensive response that fully addresses the
issues raised by petitioner and will aid the Court’s efficient resolution of this matter.
A copy of this letter has been concurrently served upon counsel for the petitioner.
Thank you for your consideration of this request.

Respectfully submitted,

Sarah Grady
Counsel of Record for Respondents
cc:

Gretchen Sperry, Robert T. Shannon, James M. Lydon, Hinshaw & Culbertson, 151
North Franklin Street, Chicago, IL 60606 (via email and U.S. mail)

